Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





  VARIATION IN THE CLINICAL 

  LABORATORY FEE SCHEDULE





                    Daniel R. Levinson

                     Inspector General 


                       July 2009

                     OEI-05-08-00400

                 Office of Inspector General

                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
E X E C U T I V E                        S U           M M A R Y
Δ    E X E C U T I V E                                     S U M M A R Y


                   OBJECTIVE
                   To determine the extent to which Medicare Clinical Laboratory Fee
                   Schedule rates varied in 2007.


                   BACKGROUND
                   Medicare Part B covers most outpatient clinical diagnostic laboratory
                   tests (hereinafter referred to as lab tests) and pays 100 percent of their
                   costs because there are no beneficiary copayments or deductibles for lab
                   tests. In 2007, lab tests accounted for 3 percent of all Medicare Part B
                   payments. Each laboratory submits claims to the Medicare carrier
                   responsible for the area in which the laboratory is located. Carriers
                   process Medicare Part B payments in 56 carrier localities that
                   correspond mostly with State borders.

                   Medicare Part B payments for lab tests are determined by the Clinical
                   Laboratory Fee Schedule. The Deficit Reduction Act of 1984 mandated
                   that fee schedules be established for each lab test on a regional,
                   statewide, or carrier basis. As a result, each carrier established its own
                   fee schedule rates (hereinafter referred to as carrier rates), which are
                   collectively known as the Clinical Laboratory Fee Schedule. The
                   Consolidated Omnibus Budget Reconciliation Act of 1985 mandated a
                   national limit amount (NLA) that capped carrier rates. The NLA is set
                   at 74 percent of the median carrier rate for each lab test (or 100 percent
                   of the median for new tests for which an NLA was not established
                   before January 1, 2001). Carriers pay laboratories the lower of the
                   laboratories’ charges or the carrier rate as capped by the NLA.

                   To determine the extent of variation, we assessed carrier rates as well
                   as utilization and payments for Medicare-covered lab tests in 2007. To
                   do this, we used the 2007 Clinical Laboratory Fee Schedule and a
                   1-percent random sample of 2007 Medicare Part B claims data for lab
                   tests paid under the Clinical Laboratory Fee Schedule.


                   FINDINGS
                   Carrier rates for nearly all lab tests varied, but 83 percent of carrier
                   rates were at the National Limit Amount. In 2007, 97 percent of lab tests
                   had at least one carrier rate that varied from the NLA. However,
                   83 percent of all carrier rates were at the NLA and 89 percent of lab test
                   claims were paid at the NLA.


 OEI-05-08-00400   VA R I AT I O N   IN THE   C L I N I C A L L A B O R AT O R Y F E E S C H E D U L E   i
E X E C U T I V E                        S U           M M A R Y


                   Variation in carrier rates did not appear to reflect geographic
                   differences in cost. Variation from the NLA was inconsistent within
                   each carrier and thus did not appear to reflect geographic differences in
                   costs. For instance, we found that each carrier had rates dispersed at
                   varying percentages below the NLA. If a geographic assessment of costs
                   had been factored into the establishment of each carrier’s rates, each
                   carrier might have been expected to have most, if not all, rates at the
                   same percentage below the NLA.
                   Methods for setting carrier rates created inconsistent variation
                   across carriers. In 2007, all carriers had rates that varied from the
                   NLA. Variation was greater for some carriers than others because of
                   methods for setting and updating carrier rates. In establishing rates
                   in 1985, carriers used laboratory charge data that may not have
                   reflected lab tests’ costs. Since then, methods used to update carrier
                   rates have incrementally added to the variation in carrier rates.

                   Because carriers pay different rates for the same lab test, variation
                   affects Medicare payments. Medicare paid over $3.4 billion for lab tests
                   in 2007. Medicare payments would have been $3.5 billion if all lab tests
                   had been paid at the NLA or $2.4 billion if the NLA had been reduced to
                   50 percent of the median carrier rate. Setting all carrier rates at
                   73 percent of the median carrier rate would have eliminated variation
                   without a change in overall Medicare payments.


                   RECOMMENDATION
                   The Centers for Medicare & Medicaid Services should seek
                   legislation that would allow it to set accurate and reasonable
                   payment rates for lab tests. The Centers for Medicare & Medicaid
                   Services (CMS) should request legislative authority to institute a new
                   process for setting accurate and reasonable payment rates. CMS could
                   use several methods to achieve this result. Whatever method CMS
                   implements should be determined after careful consideration of the
                   impact on Medicare costs and on the laboratory industry.

                   One approach would be for CMS to seek legislation to set a base
                   payment rate for each lab test. If a single base payment rate for each
                   lab test is set, CMS should consider adjusting these rates to reflect any
                   geographic differences in cost.




 OEI-05-08-00400   VA R I AT I O N   IN THE   C L I N I C A L L A B O R AT O R Y F E E S C H E D U L E   ii
E X E C U T I V E                        S U           M M A R Y 





                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS did not concur, at this time, with our recommendation to seek
                   legislation that would allow it to set accurate and reasonable payment
                   rates for lab tests. Although it did not concur at this time, CMS stated
                   that it will consider our recommendation and that it is committed to
                   improving payment policies for lab tests and to refining methodologies
                   for establishing new payment rates. We encourage CMS to pursue
                   legislation that would allow it to set accurate and reasonable payment
                   rates for lab tests.




 OEI-05-08-00400   VA R I AT I O N   IN THE   C L I N I C A L L A B O R AT O R Y F E E S C H E D U L E   iii
Δ   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         FINDINGS ................................................. 8

                   Carrier rates for nearly all lab tests varied, but 83 percent of 

                   carrier rates were at the National Limit Amount . . . . . . . . . . . . . . 8 


                   Variation in carrier rates did not appear to reflect geographic 

                   differences in cost . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9 


                   Methods for setting carrier rates created inconsistent variation 

                   across carriers . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 



         R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 

                   Agency Comments and Office of Inspector General Response . . . 14 



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 

                   A: Rates Below the National Limit Amount by Carrier . . . . . . . . 15 


                   B: Carrier Rates for the 10 Most Utilized Lab Tests . . . . . . . . . . 17 


                   C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 





         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21 

Δ      I N T R O D U C T I O N


                  OBJECTIVE
                  To determine the extent to which Medicare Clinical Laboratory Fee
                  Schedule rates varied in 2007.


                  BACKGROUND
                  Clinical diagnostic laboratory tests (hereinafter referred to as lab tests)
                  are tests performed on specimens taken from the human body and
                  provide information integral to preventing, diagnosing, and treating
                  disease. Most lab tests are conducted in hospital, physician-office, or
                  independent laboratories.
                  Medicare Part B Coverage and Payment for Lab Tests
                  Medicare Part B covers most outpatient lab tests and pays 100 percent
                  of their costs because there are no beneficiary copayments or
                  deductibles for lab tests. 1 In 2007, lab tests accounted for 3 percent of
                  all Medicare Part B payments. 2
                  Each laboratory submits claims to the Medicare carrier responsible for
                  the area in which a laboratory is located. 3 Carriers process Medicare
                  Part B payments in 56 carrier localities that correspond mostly to State
                  borders. By 2011, the 56 carrier localities are scheduled to be replaced
                  by 15 Medicare Administrative Contractor (MAC) jurisdictions.
                  However, MACs will not consolidate payment policies. MACs will
                  continue to administer the same payment policies used in each of the
                  56 carrier localities.
                  The Clinical Laboratory Fee Schedule
                  The Deficit Reduction Act of 1984 (DRA of 1984) mandated that fee
                  schedules be established for each lab test on a regional, statewide, or
                  carrier basis. 4 Consistent with the DRA of 1984, each carrier
                  established its own fee schedule rates based on the prevailing charges


                      1 Social Security Act § 1866(a)(2)(A)(ii), 42 U.S.C. § 1395cc(a)(2)(A)(ii); Social Security Act
                  § 1833(b)(3), 42 U.S.C. § 1395l(b)(3).
                      2 Centers for Medicare & Medicaid Services (CMS), “Data Compendium: Table II.3.”
                  Available online at
                  http://www.cms.hhs.gov/DataCompendium/downloads/2008Expenditures.zip. Accessed on
                  February 26, 2009.
                     3 Each hospital laboratory submits claims to the fiscal intermediary responsible for the
                  area in which the hospital is located. Fiscal intermediaries use the same payment system
                  as carriers.
                      4 DRA of 1984, P.L. No. 98-369 § 2303(d).




OEI-05-08-00400   VA R I AT I O N   IN THE   C L I N I C A L L A B O R AT O R Y F E E S C H E D U L E              1
I N T R O D        U C T              I O N


                    for lab tests in its locality between 1984 and 1985. 5 The fee schedule
                    rates established by carriers (hereinafter referred to as carrier rates)
                    are collectively known as the Clinical Laboratory Fee Schedule.
                    Currently, the Clinical Laboratory Fee Schedule covers 1,105 unique lab
                    tests.

                    In addition to establishing the Clinical Laboratory Fee Schedule, the
                    DRA of 1984 mandated two further changes. First, it mandated the
                    establishment of a single national fee schedule after July 1, 1987. 6
                    Congress repealed this mandate in 1989 following an Office of Inspector
                    General (OIG) report. 7 The OIG report found that setting a national fee
                    schedule at rates equal to 100 percent of the median carrier rate for
                    each lab test would have been more costly than the range of carrier
                    rates on the Clinical Laboratory Fee Schedule. 8 Second, the DRA of
                    1984 mandated the use of the Consumer Price Index for All Urban
                    Consumers (CPI-U) to annually adjust carrier rates for inflation. 9 In
                    2003, Congress eliminated the CPI-U adjustments for 2004 through
                    2008. 10 In 2008, Congress reinstated the CPI-U adjustments but
                    lowered the CPI-U by 0.5 percentage points for 2009 through 2013. 11
                    The Consolidated Omnibus Budget Reconciliation Act of 1985 (COBRA)
                    mandated a national limit amount (NLA) that capped carrier rates at
                    115 percent of the median carrier rate for each lab test. 12 For example,
                    if the median carrier rate for a particular lab test was $100, the NLA
                    capped carrier rates at $115. Over time, Congress incrementally
                    lowered the percentage of the national median carrier rate used to
                    calculate the NLA as part of a process to implement cost constraints. 13
                    Since 1998, the NLA has been set at 74 percent of the median carrier
                    rate for each lab test (or 100 percent of the median for new lab tests for



                        5 DRA of 1984, P.L. No. 98-369 § 2303(d). 

                        6 Ibid. 

                        7 The Omnibus Budget Reconciliation Act of 1989, P.L. No. 101-239 § 6111(a). 

                        8 OIG, “Medicare Reimbursement for Outpatient Laboratory Services,” OAI-04-88-01080, 

                    p. 9, March 1989.
                        9 DRA of 1984, P.L. No. 98-369 § 2303(d).
                        10 Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (MMA),
                    P.L. No. 108-173 § 628.
                        11 Medicare Improvements for Patients and Providers Act of 2008, P.L. No. 110-275
                    § 145(b).
                        12 COBRA, P.L. No. 99-272 § 9303(b).
                        13 Social Security Act, § 1833(h)(4)(B), 42 U.S.C. § 1395l(h)(4)(B).




 OEI-05-08-00400    VA R I AT I O N   IN THE   C L I N I C A L L A B O R AT O R Y F E E S C H E D U L E     2
I N T R O D        U C T              I O N


                    which an NLA was not established before January 1, 2001). 14 Under
                    the Clinical Laboratory Fee Schedule, carriers pay laboratories the
                    lower of the laboratories’ charges or the carrier rate as capped by the
                    NLA. 15
                    In 2003, Congress mandated that CMS implement a demonstration
                    project to explore whether competitive bidding could provide rates for
                    lab tests below those on the Clinical Laboratory Fee Schedule. 16
                    However, a lawsuit brought by two laboratories resulted in a
                    court-ordered preliminary injunction that stopped implementation of
                    the demonstration project in April 2008. 17 In July 2008, Congress
                    repealed the authority for the demonstration, thereby eliminating the
                    demonstration project. 18
                    Updating the Clinical Laboratory Fee Schedule
                    To keep pace with industry changes, CMS annually determines which
                    lab tests to cover under Medicare. As a result, CMS either adds or
                    deletes lab tests from the Clinical Laboratory Fee Schedule. When CMS
                    adds a new lab test to the Clinical Laboratory Fee Schedule, it must
                    determine the appropriate carrier rates. CMS uses one of two methods
                    to set the carrier rates for each new lab test: cross-walking or
                    gap-filling. 19
                    Cross-walking new lab tests. CMS uses the cross-walking method to
                    assign carrier rates when it considers a new lab test to be clinically or
                    technologically similar to an existing lab test, multiple existing lab
                    tests, or a portion of an existing lab test. Under this method, CMS
                    assigns an existing lab test’s NLA and carrier rates to the new lab
                    test. 20 According to CMS staff, CMS uses this method to set carrier
                    rates for the majority of lab tests.




                        14 Social Security Act, § 1833(h)(4)(B)(viii), 42 U.S.C. § 1395l(h)(4)(B)(viii). 

                        15 Social Security Act, § 1833(a)(1)(D)(i), 42 U.S.C. § 1395l(a)(1)(D)(i). 

                        16 MMA, P.L. No. 108-173 § 302(b). 

                      17 Sharp Healthcare v. Leavitt, No. 08-CV-0170 W (POR), 2008 U.S. Dist. LEXIS 

                    28623 (S.D. Cal. Apr. 8, 2008).
                       18 Medicare Improvements for Patients and Providers Act of 2008, P.L. No. 110-275
                    § 145(a).
                      19 42 CFR 414.508; see also 73 Fed. Reg. 33825, 33825 (June 13, 2008) (describing the
                    two methods).
                        20 42 CFR 414.508(a).




 OEI-05-08-00400    VA R I AT I O N   IN THE   C L I N I C A L L A B O R AT O R Y F E E S C H E D U L E       3
I N T R O D        U C T              I O N


                    Gap-filling new lab tests. CMS uses the gap-filling method to establish
                    carrier rates for a new lab test if no similar lab test exists. 21 Under this
                    method, CMS assigns each carrier the responsibility for setting the new
                    rates in the first year. Carriers may use several sources of information
                    to set rates, such as lab test charges and payment amounts determined
                    by other payers. Carriers may also consider other sources of
                    information as appropriate. 22 In the second year, CMS uses the
                    carrier-specific amounts to establish the NLA. 23
                    Office of Inspector General and Related Work
                    Previous OIG work on laboratories included studies that examined
                    payment safeguards, 24 Clinical Laboratory Fee Schedule rates
                    compared to other payers, 25 utilization and alternative payment
                    approaches, 26 and potential costs for establishing a national fee
                    schedule for outpatient lab tests. 27
                    In 2000, the Institute of Medicine (IOM) of the National Academies
                    published “Medicare Laboratory Payment Policy: Now and in the
                    Future.” 28 IOM found that the Clinical Laboratory Fee Schedule and
                    methodology for setting rates have not evolved to account for
                    technology, market, and regulatory changes. Among other
                    recommendations, IOM recommended that Medicare payments for lab
                    tests be based on a single, rational, national fee schedule that should be
                    adjusted for geographic location to account for differences in costs of
                    labor and supplies. 29



                        21 42 CFR 414.508(b).
                        22 42 CFR 414.508(b)(1)(iv); CMS, “Medicare Claims Processing Manual,”
                    Pub. No. 100-4, ch. 23 § 40.4. Available online at
                    http://www.cms.hhs.gov/manuals/downloads/clm104c23.pdf. Accessed on September 15,
                    2008.
                        23 42 CFR 414.508(b)(2).
                        24 OIG, “Common Working File Edits for Unauthorized Laboratory Tests,”
                    OEI-05-00-00050, January 2002.
                      25 OIG, “Follow-Up Report to Changes Are Needed in the Way Medicare Pays for Clinical
                    Laboratory Tests,” A-09-93-00056, January 1996.
                      26 OIG, “Ensuring Appropriate Use of Laboratory Services,” OEI-05-89-89150,
                    October 1990.
                      27 OIG, “Medicare Reimbursement for Outpatient Laboratory Services,”
                    OAI-04-88-01080, March 1989.
                      28 Dianne Miller Wolman, et al., Institute of Medicine of the National Academies,
                    “Medicare Laboratory Payment Policy: Now and in the Future,” 2000.
                        29 Wolman, et al.., op. cit., pp. 146–147.




 OEI-05-08-00400    VA R I AT I O N   IN THE   C L I N I C A L L A B O R AT O R Y F E E S C H E D U L E   4
I N T R O D        U C T              I O N 




                    METHODOLOGY
                    This study assesses carrier rates and utilization of Medicare-covered lab
                    tests in 2007 to describe variation in the 2007 Clinical Laboratory Fee
                    Schedule. This study also assesses the effect of variation on Medicare
                    Part B payments for lab tests.
                    Data Sources
                    To describe variation across lab tests and carriers for the 2007 Clinical
                    Laboratory Fee Schedule, we obtained the corresponding 56 carrier
                    rates and NLA for each of the 1,105 unique Medicare-covered lab tests.
                    We defined lab tests using the Healthcare Common Procedure Coding
                    System. To determine whether variation had changed over time, we
                    obtained the 56 carrier rates and the NLA for each of the 1,059 unique
                    Medicare-covered lab tests on the 2002 Clinical Laboratory Fee
                    Schedule to contrast with those on the 2007 Clinical Laboratory Fee
                    Schedule. We selected the 2002 Clinical Laboratory Fee Schedule to
                    provide a historical perspective over a 5-year period.

                    To determine utilization of and payment for lab tests, we obtained a
                    1-percent random sample of 2007 Medicare Part B claims data for lab
                    tests paid under the Clinical Laboratory Fee Schedule. The Part B
                    claims data identify the paying carrier, the type of lab test performed,
                    and the amount the carrier paid for each lab test. This sample includes
                    a record for each lab test that a laboratory billed. It does not include
                    claims from hospital outpatient laboratories. We chose not to obtain
                    hospital outpatient laboratory claims because some hospital
                    laboratories are paid with a special adjustment for outpatient lab tests
                    or are paid on a reasonable-cost basis.
                    Data Analysis
                    We analyzed the 2007 Clinical Laboratory Fee Schedule by lab test and
                    by carrier to determine the extent of variation in carrier rates. To
                    determine whether the extent of variation changed over time, we
                    compared the number of carrier rates for lab tests below the NLA in
                    2002 to the number of carrier rates below the NLA in 2007.

                    Determining the extent of carrier rate variation for lab tests. To determine
                    the variation in carrier rates for each lab test, we calculated how far
                    below the NLA all 56 carrier rates were for each lab test. We then
                    calculated several measures of carrier rate variation across all lab tests.

                    We determined the utilization of lab tests paid at or below the NLA.
                    For lab tests paid below the NLA, we determined how much they were

 OEI-05-08-00400    VA R I AT I O N   IN THE   C L I N I C A L L A B O R AT O R Y F E E S C H E D U L E   5
I N T R O D        U C T              I O N


                    paid below the NLA and the corresponding level of utilization. To do
                    this, we identified the allowed lab tests paid below the NLA, determined
                    the percentage of the NLA each of these allowed lab tests was paid, and
                    grouped the allowed lab tests by the different percentages of the NLA
                    that they were paid. We could not match the payment methodology to
                    the corresponding claim or claims for less than 1 percent of allowed lab
                    tests and therefore did not include them in our analysis.

                    Determining the extent of variation in each carrier’s rates. To determine
                    the extent of variation in each carrier’s rates, we assessed the range and
                    distribution of all rates for each carrier at different percentages of the
                    NLA.

                    To provide an example of the variation in each carrier’s rates, we
                    assessed the rates for the carrier with the highest lab test utilization.
                    To identify the carrier with the highest lab test utilization, we summed
                    the total number of allowed lab tests for each carrier. We then assessed
                    the extent and range of variation in this carrier’s rates for lab tests.

                    Determining the extent of variation across carriers and the effect of
                    variation on Medicare payments. To determine the extent of variation in
                    rates across carriers, we counted the number of rates that each carrier
                    had below the NLA. We then calculated several measures of variation
                    across all 56 carriers.

                    To provide an example of the effects of variation on Medicare payments,
                    we chose to use the claims and payments for the 10 most utilized lab
                    tests nationally in 2007. We identified the 10 most utilized lab tests
                    nationally by calculating the number of allowed lab tests for each claim
                    and ranking each lab test by the number of allowed lab tests. We then
                    assessed variation in their carrier rates. These 10 lab tests accounted
                    for 48 percent of all lab test utilization in 2007.

                    To see how variation across carriers affects Medicare payments, we first
                    calculated the amount Medicare actually paid for lab tests in 2007.
                    Then, we calculated how much Medicare hypothetically would have paid
                    if variation had been eliminated. We calculated three examples:
                    (1) a single payment rate based on the current NLA, (2) a single
                    payment rate based on a cost-neutral NLA, and (3) a single payment
                    rate based on an NLA set at a reduced percentage of the median carrier
                    rate. To do so, we chose to reduce the NLA to 50 percent of the median
                    carrier rate.




 OEI-05-08-00400    VA R I AT I O N   IN THE   C L I N I C A L L A B O R AT O R Y F E E S C H E D U L E   6
I N T R O D        U C T              I O N


                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency (now
                    Council of the Inspectors General on Integrity and Efficiency).




 OEI-05-08-00400    VA R I AT I O N   IN THE   C L I N I C A L L A B O R AT O R Y F E E S C H E D U L E   7
F   I N D I N G        S
Δ       F I N D I N G S

Carrier rates for nearly all lab tests varied, but          In 2007, although 97 percent of lab
83 percent of carrier rates were at the National            tests had at least one carrier rate
                                                            that varied from the NLA, most
                                    Limit Amount
                                                            carrier rates for lab tests were at
                      the NLA. Overall, 83 percent of carrier rates were set at the NLA. For
                      the 17 percent of carrier rates below the NLA, carrier rates ranged from
                      less than 1 percent to 93 percent below the NLA. On average, these
                      carrier rates were 25 percent below the NLA.
                      Similarly, most lab test utilization was paid at the NLA. Overall,
                      89 percent of lab test utilization was paid at the NLA. In addition, most
                      of the 11 percent of lab test utilization that was paid below the NLA was
                      for lab tests that were paid near the NLA. For example, 47 percent of
                      utilization for lab tests paid below the NLA was paid within 10 percent
                      of the NLA.

                      As illustrated in Chart 1, lab test utilization generally declined as the
                      amount paid moved farther below the NLA, with a noticeable drop in
                      lab test utilization when the amount paid was 25 percent or more below
                      the NLA. In addition, Chart 1 demonstrates that carrier rates below
                      the NLA were most prevalent where the percentage below the NLA was
                      the smallest. The percentage of carrier rates below the NLA generally
                      declined as the carrier rates moved farther below the NLA.




    OEI-05-08-00400   VA R I AT I O N   IN THE   C L I N I C A L L A B O R AT O R Y F E E S C H E D U L E   8
 F NDINGS

Chart 1: Percentage of Lab Test Utilization and Carrier Rates at Different Percentages
Below the NLA
        30% -----------
 c(
 ..
 Z
 :5 25%
 ~
 Q¡
 ai
 Šni
 ii     20%
 "-
 el
 "E
 ni
 (J
 i:c:                                                                                                                 -i Carrier Rates
 ni
 c:     15%
 0                                                                                                                    -+Lab Test
                                                                                                                          Utilization
 ~
 §
 $
 i-     10%
 ~
 ..
 Õ
 el
 Cl
 ni
         5%
 5i
 l.
 æ
 Q.



         0%


           ~~&*  ~~~~~&Ç&~&~&*~~&Ø&
             ~~~?~
                ~ ~ ~~~~
                       ~~~ ~d,~~dÆ~d~
                           ~ ~ v v v\\ ~ ~ ~~ ~~ ~
                                                        Percenta e Below the NLA
Source: OIG analysis of the 2007 Clinical Laboratory Fee Schedule and Medicare Part B Claims data, 2008.




                  Variation in carrier rates did not appear to                                No carrier consistently had all
                      reflect geographic differences in cost              rates at the same percentage
                                                                          below the NLA. Instead, each
                               carrier had rates dispersed at varying percentages below the NLA. For
                               example, Florida's carrier, the carrier with the highest utiization of lab
                               tests, ilustrates how carriers' rates were dispersed below the NLA.
                               Overall, 21 percent of Florida's carrier rates were below the NLA.
                               These rates ranged between less than 1 percent and 92 percent below
                               the NLA. See Chart 2 for the number of                        Florida's carrier rates at
                               different percentages below the NLA.




        OEI. 0 5.0 8.0 0400    VARIATION IN THE CLINICAL LABORATORY FEE SCHEDULE                                           9
F                  I N D I N G                              S            




Chart 2: Florida’s Carrier Rates Below the NLA


                              50


                              45


                              40


                              35
    Number of Carrier Rates




                              30


                              25


                              20


                              15


                              10


                               5


                               0
                                          0%


                                                 5%


                                                         0%


                                                                    %




                                                                                        %


                                                                                                    %

                                                                                                           5%


                                                                                                                      %




                                                                                                                                        0%


                                                                                                                                                   5%


                                                                                                                                                           0%


                                                                                                                                                                  5%




                                                                                                                                                                                    %

                                                                                                                                                                                          0%


                                                                                                                                                                                                  5%
                                                                               %




                                                                                                                               %




                                                                                                                                                                           %
                                   5%




                                                                    5

                                                                             30


                                                                                         5

                                                                                                40




                                                                                                                      0

                                                                                                                             55




                                                                                                                                                                         80


                                                                                                                                                                                   5
                                                       -2




                                                                                                         -4




                                                                                                                                      -6




                                                                                                                                                         -7




                                                                                                                                                                                                -9
                                           1
                                 -




                                                 -1




                                                                 -2




                                                                                      -3




                                                                                                                   -5




                                                                                                                                                   -6




                                                                                                                                                                  -7




                                                                                                                                                                                -8


                                                                                                                                                                                          -9
                              <1


                                        5-




                                                                            -




                                                                                                -




                                                                                                                             -




                                                                                                                                                                          -
                                               10


                                                      15


                                                               20




                                                                                   30




                                                                                                        40


                                                                                                                45




                                                                                                                                    55


                                                                                                                                                 60


                                                                                                                                                        65


                                                                                                                                                                70




                                                                                                                                                                               80


                                                                                                                                                                                        85


                                                                                                                                                                                               90
                                                                         25




                                                                                             35




                                                                                                                          50




                                                                                                                                                                       75
                                                                                                        Percentage Below the NLA
Source: OIG analysis of the 2007 Clinical Laboratory Fee Schedule and Medicare Part B Claims data, 2008.


                                                           If a geographic assessment of costs had been consistently factored into
                                                           the establishment of each carrier’s rates, each carrier might have
                                                           been expected to have most, if not all, rates at the same percentage
                                                           below the NLA. For example, under Medicare’s physician fee
                                                           schedule and hospital outpatient prospective payment system, base
                                                           rates from a single national fee schedule are adjusted to reflect
                                                           geographic differences in costs, such as wages. As a result, rates for
                                                           each physician or hospital outpatient service are adjusted by the same
                                                           percentage from the corresponding fee schedule for each individual
                                                           locality.

                               Methods for setting carrier rates created                         Variation in carrier rates
                                 inconsistent variation across carriers                          originates from the methods used
                                                                                                 to establish and update the
                                                           Clinical Laboratory Fee Schedule. When carriers established the
                                                           Clinical Laboratory Fee Schedule in 1985, they used laboratory
                                                           charge data from their localities to set payment rates. Although this

          OEI-05-08-00400                                  VA R I AT I O N   IN THE   C L I N I C A L L A B O R AT O R Y F E E S C H E D U L E                                                      10
F   I N D I N G        S


                      report did not assess the charge data used to establish the Clinical
                      Laboratory Fee Schedule, evidence suggests that laboratory charge
                      data may not have reflected the actual costs of performing lab tests. 30
                      In some cases, laboratory charge data may have reflected laboratories’
                      decisions on acceptable profit levels and market share. As a
                      consequence, charge data may also not have reflected real differences
                      in cost from carrier to carrier. 31
                      Since the establishment of the Clinical Laboratory Fee Schedule, the
                      cross-walking and gap-filling methods used to update it have
                      incrementally added to the variation in carrier rates. The cross-walking
                      method builds upon existing variation because CMS assigns new lab
                      tests the carrier rates of existing lab tests. Thus, if the existing lab test
                      has variation, the new lab test has the same variation. The gap-filling
                      method may also add to variation because CMS allows carriers, at their
                      discretion, to use different sources of information to assign rates for new
                      lab tests.

                      If CMS continues to use these two methods for updating the Clinical
                      Laboratory Fee Schedule, variation that does not reflect actual costs
                      will remain and possibly increase over time. For example, between
                      2002 and 2007, CMS added 70 new lab tests to the Clinical
                      Laboratory Fee Schedule and deleted 24 lab tests. During this time,
                      the variation in the Clinical Laboratory Fee Schedule increased
                      slightly, from 16.8 percent of carrier rates below the NLA to
                      17.1 percent. IOM found that about 15 percent of carrier rates were
                      below the NLA in 2000. 32
                      Variation was greater for some carriers than others
                      The methods used to establish and update the Clinical Laboratory Fee
                      Schedule resulted in the proportion of rates below the NLA varying
                      across carriers. At one end, Alaska’s carrier had 3 percent of its rates
                      below the NLA. At the other end, Utah’s carrier had 31 percent of its
                      rates below the NLA. Most carriers (34 of 56) had between
                      10 and 24 percent of their rates below the NLA. See Appendix A for the
                      proportion, average, and range of rates below the NLA for each carrier.




                          30 Wolman, et al., op. cit., p. 89.
                          31 Wolman, et al., op. cit., p. 95.
                          32 Wolman, et al., op. cit., p. 90.




    OEI-05-08-00400   VA R I AT I O N   IN THE   C L I N I C A L L A B O R AT O R Y F E E S C H E D U L E   11
F   I N D I N G 
S


                      Carriers also differed with respect to the amounts at which their rates
                      were below the NLA. At the low end of the range of variation,
                      Kentucky’s carrier had an average rate 16 percent below the NLA. At
                      the high end of the range, Wisconsin’s carrier had an average rate of
                      38 percent below the NLA.

                      Variation of rates across carriers means that some carriers paid
                      different amounts for the same lab test. For example, the carrier rate
                      for one genetic test was $12.82 in California and $95.84 in Wyoming.
                      Similarly, the carrier rate for one breath analysis test was $60.66 in
                      New Jersey and $94.11 in Kentucky. Another example concerns the two
                      most utilized tests. For the most utilized lab test, the carrier rate for
                      Kentucky was at the NLA (the highest possible carrier rate), whereas
                      the carrier rate for Kansas was 40 percent below the NLA (the lowest
                      carrier rate for this lab test). However, the reverse was true for the
                      second most utilized lab test. The carrier rate for Kansas was at the
                      NLA, whereas the carrier rate for Kentucky was 21 percent below the
                      NLA (the lowest carrier rate for this lab test). See Appendix B for
                      examples of variation in the carrier rates for the 10 most utilized lab
                      tests.

                      Because carriers pay different rates for the same lab test, variation
                      affects Medicare payments. Medicare paid over $3.4 billion using the
                      current carrier rates for lab tests in 2007. If variation had been
                      eliminated by setting all carrier rates at the current NLA, Medicare
                      payments would have increased by $74 million, bringing the total to
                      almost $3.5 billion. On the other hand, if variation had been eliminated
                      using a single rate based on a reduced NLA, Medicare would have paid
                      less. For example, if all lab tests had been paid at 50 percent of the
                      median carrier rate, Medicare payments would have been reduced to
                      $2.4 billion, a reduction of $1 billion. Only if carrier rates had been set
                      at 73 percent of the median carrier rate would variation have been
                      eliminated with no change in overall Medicare payments.




    OEI-05-08-00400   VA R I AT I O N   IN THE   C L I N I C A L L A B O R AT O R Y F E E S C H E D U L E   12
Δ   R E C O M M E N D A T I O N

                  Although variation affected nearly all lab tests, most carrier rates were
                  at the NLA and the majority of lab test utilization was for lab tests paid
                  at the NLA. The variation that existed in 2007 did not appear to reflect
                  geographic differences in cost. Instead, the variation originated from
                  the methods used to establish and update the Clinical Laboratory Fee
                  Schedule. Variation of rates across carriers means that some carriers
                  paid different amounts for the same lab test.

                  In light of our findings, we make the following recommendation for
                  setting payment rates for lab tests.
                  CMS should seek legislation that would allow it to set accurate and
                  reasonable payment rates for lab tests
                  CMS should request legislative authority to institute a new process for
                  setting accurate and reasonable payment rates that would represent
                  costs, adjusted for any geographic differences. Whatever method CMS
                  implements to set rates accurately and reasonably should be
                  determined after careful consideration of the impact on Medicare costs
                  and on laboratories.

                  One approach would be for CMS to seek legislation to set a base
                  payment rate for each lab test. IOM also recommended moving to a
                  single base payment rate as a first step to a simplified and more
                  rational payment system. 33 If a single base payment rate for each lab
                  test is set, CMS should consider adjusting these rates to reflect any
                  actual geographic differences in cost. In addition, CMS may wish to
                  consider adjusting base payment rates to take into account other factors
                  affecting the cost of providing lab tests.

                  One way to establish a base payment rate for each lab test would be to
                  pay all lab tests at the current NLA or at a reduced NLA. In an earlier
                  report, OIG found that setting a base payment rate using the NLA could
                  be costly because doing so would require increasing some carrier rates. 34
                  However, cost-neutral base payment rates could be achieved by
                  adjusting all carrier rates to a percentage of the NLA. We estimate that
                  in 2007, a single payment rate based on 73 percent of the median
                  carrier rate would not have resulted in a change in overall Medicare
                  payments.


                      33 Wolman, et al., op. cit., pp. 146–147.
                      34 OIG, “Medicare Reimbursement for Outpatient Laboratory Services,”
                  OAI-04-88-01080, March 1989.



OEI-05-08-00400   VA R I AT I O N   IN THE   C L I N I C A L L A B O R AT O R Y F E E S C H E D U L E   13
R   E C O        M M E N D A T                          I O N 



                      While using the NLA as a base payment rate would eliminate the
                      current variation, payment rates using this approach may not
                      accurately reflect cost because the NLA would still be derived from the
                      same suspect data used to establish and update the Clinical Laboratory
                      Fee Schedule.

                      In seeking legislation to set accurate and reasonable payment rates for
                      existing lab tests, CMS should include a process to set accurate and
                      reasonable payment rates for new lab tests.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS did not concur, at this time, with our recommendation to seek
                      legislation that would allow it to set accurate and reasonable payment
                      rates for lab tests. CMS noted that the President’s budget for fiscal year
                      2010 does not propose amending the payment methodology for lab tests.
                      CMS also noted that it does not have the authority to standardize
                      payment rates across the Clinical Laboratory Fee Schedule without a
                      legislative change. We have clarified the recommendation language to
                      reflect this.

                      Although it did not concur at this time, CMS stated that it will consider
                      our recommendation and that it is committed to improving payment
                      policies for lab tests and to refining methodologies for establishing new
                      payment rates. CMS suggested that using the gap-filling method for
                      establishing payment rates for new lab tests in place of the
                      cross-walking methodology has the potential to establish rates more
                      closely tied to cost, but it was uncertain of unintended consequences.
                      CMS further noted that recently established annual meetings that
                      invite public discussion on the payment rates for new lab tests may lead
                      to more accurate rates for new lab tests.

                      We encourage CMS to pursue legislation that would allow it to set
                      accurate and reasonable payment rates for lab tests.




    OEI-05-08-00400   VA R I AT I O N   IN THE   C L I N I C A L L A B O R AT O R Y F E E S C H E D U L E   14
Δ      A P P E N D I X ~ A

                        Rates Below the National Limit Amount by Carrier

                   Table 1: The Percentage, Average, and Range of
                   Rates Below the National Limit Amount* by Carrier
                                       Percentage                     Average               Smallest             Largest
                                         of Carrier                Percentage             Percentage          Percentage
                                      Rates Below                   Below the              Below the           Below the
                   Carrier                the NLA                        NLA                    NLA                 NLA
                   AK                                3%                      25%                  0.92%            76%

                   NV                                4%                      24%                  0.12%            65%

                   HI                                4%                      30%                  1.51%            84%

                   CT                                6%                      27%                  2.88%            81%

                   MT                                6%                      26%                  0.37%            91%

                   OR                                6%                      22%                  0.04%            82%

                   MN                                7%                      18%                  0.42%            67%

                   OK                                8%                      27%                  0.37%            69%

                   CA2                               8%                      24%                  0.77%            87%

                   CA1                               8%                      24%                  0.77%            87%

                   AZ                                9%                      21%                  0.54%            62%

                   NM                                9%                      26%                  0.20%            82%

                   PR                              10%                       18%                  0.26%            86%

                   ND                              10%                       25%                  0.03%            78%

                   NJ                              11%                       17%                  0.39%            73%

                   IL                              12%                       27%                  0.05%            81%

                   LA                              13%                       31%                  0.62%            73%

                   MO2                             13%                       31%                  0.13%            88%

                   WI                              14%                       38%                  0.45%            77%

                   CO                              14%                       29%                  0.03%            88%

                   RI                              15%                       25%                  0.31%            73%

                   WV                              15%                       26%                  1.66%            86%

                   WA                              16%                       26%                  0.17%            84%

                   DC                              16%                       19%                  0.22%            80%

                   OH                              16%                       27%                  0.93%            86%

                   PA                              16%                       20%                  0.19%            87%

                   ID                              17%                       20%                  0.59%            75%

                   VA                              17%                       21%                  0.90%            76%

                  * National Limit Amount = NLA.




OEI-05-08-00400         VA R I AT I O N   IN THE   C L I N I C A L L A B O R AT O R Y F E E S C H E D U L E                15
A   P   P E N D             I X                ~         A           





                       Table 1: The Percentage, Average, and Range of
                       Rates Below the National Limit Amount by Carrier
                       (Continued)
                                         Percentage of                      Average              Smallest             Largest
                                          Carrier Rates                  Percentage            Percentage          Percentage
                                            Below the                     Below the             Below the           Below the
                       Carrier                     NLA                         NLA                   NLA                 NLA
                       AR                               17%                      28%                  0.05%             77%

                       DE                               18%                      19%                  0.22%             83%

                       GA                               18%                      30%                  0.08%             83%

                       IA                               18%                      30%                  0.05%             91%

                       TX                               18%                      31%                  0.21%             75%

                       KS                               18%                      30%                  0.09%             84%

                       SD                               19%                      27%                  0.03%             84%

                       MD                               20%                      25%                  0.14%             92%

                       KY                               21%                      16%                  0.29%             88%

                       FL                               21%                      26%                   0.23%            92%

                       MA                               22%                      23%                  0.68%             74%

                       ME                               22%                      23%                  0.68%             74%

                       MO1                              23%                      33%                  0.41%             85%

                       NH                               23%                      23%                  0.68%             82%

                       SC                               24%                      27%                  0.12%             85%

                       MS                               24%                      27%                  0.37%             85%

                       TN                               24%                      21%                  0.37%             87%

                       IN                               24%                      25%                  0.50%             87%

                       AL                               25%                      22%                  0.24%             87%

                       NC                               25%                      19%                  0.15%             88%

                       NY3                              26%                      28%                  0.42%             86%

                       NY2                              27%                      31%                  0.42%             86%

                       NE                               27%                      32%                  0.05%             93%

                       WY                               28%                      29%                  0.03%             79%

                       NY1                              29%                      20%                  0.04%             92%

                       VT                               29%                      22%                  0.29%             77%

                       MI                               30%                      25%                  0.09%             90%

                       UT                               31%                      27%                  0.03%             92%
                      Source: Office of Inspector General analysis of the 2007 Clinical Laboratory Fee
                      Schedule, 2008.




    OEI-05-08-00400          VA R I AT I O N   IN THE   C L I N I C A L L A B O R AT O R Y F E E S C H E D U L E                16
            Δ               A P P E N D I X ~ B

                                                Carrier Rates for the 10 Most Utilized Lab Tests
                                                Below is a chart showing the National Limit Amount (NLA) and carrier
                                                rates for the 10 most utilized lab tests for 2007. Carrier rates below the
                                                NLA are bolded and underlined.


Table 2: Carrier Rates for the 10 Most Utilized Lab Tests for 2007
                                                                                                                                                                 Complete
                                                                                                                                                              Blood Count
                                                                                                                                                    Assay    w/ Automated
             Basic         Comp.                                          Urinalysis              Urinalysis                                       Thyroid      Differential
          Metabolic      Metabolic      Lipid        Urinalysis        Automated w/                   w/out             Glycosylated           Stimulating    White Blood           Prothobin
Carrier      Panel          Panel       Panel        w/ Scope                Scope                   Scope               Hemoglobin              Hormone        Cell Count               Time

NLA         $11.83         $14.77      $18.72             $4.43                    $4.43                $3.57                         $13.56       $23.47           $10.86              $5.49
AK          $11.83         $14.77      $18.72             $4.43                    $4.43                $3.57                         $13.56       $23.47           $10.86              $5.49

AL          $11.83         $14.77      $15.88             $4.43                    $4.43                $3.57                         $13.56       $23.47           $10.86              $5.49

AR          $11.83         $14.77      $17.77             $4.43                    $4.43                $3.57                         $13.56       $23.47           $10.86              $5.49

AZ          $11.83         $14.77      $18.72             $4.43                    $4.43                $3.57                         $13.56       $23.47             $8.97             $5.49

CA1         $11.83         $14.77      $18.72             $4.43                    $4.43                $3.57                         $13.56       $23.47           $10.86              $5.49

CA2         $11.83         $14.77      $18.72             $4.43                    $4.43                $3.57                         $13.56       $23.47           $10.86              $5.49

CO          $11.83         $14.77      $18.72             $4.43                    $4.43                $3.57                         $13.56       $23.47             $9.88             $5.49

CT          $11.83         $14.77      $18.72             $4.43                    $4.43                $3.57                         $13.56       $23.47           $10.86              $5.49

DC          $11.83         $14.77      $18.72             $4.43                    $4.43                $3.57                         $13.56       $23.47           $10.86              $5.49

DE          $11.83         $14.77      $18.72             $4.41                    $4.41                $3.57                         $13.56       $23.47           $10.86              $5.49

FL          $11.83         $14.77      $18.72             $4.43                    $4.43                $3.57                         $13.56       $23.47           $10.86              $5.49

GA          $11.83         $14.77      $18.72             $4.43                    $4.43                $3.57                         $13.56       $23.47           $10.86              $5.49

HI          $11.83         $14.77      $18.72             $4.43                    $4.43                $3.57                         $13.56       $23.47           $10.86              $5.49

IA          $11.83         $14.77      $18.72             $4.43                    $4.43                $3.57                         $13.56       $23.47           $10.86              $4.89

ID          $11.83         $14.77      $15.85             $4.43                    $4.43                $3.57                          $9.77       $21.98           $10.86              $5.49

IL          $11.83         $14.77      $18.72             $4.43                    $4.43                $3.57                         $13.56       $23.47           $10.86              $5.49

IN           $8.93         $14.55      $18.72             $4.43                    $4.43                $3.57                         $13.56       $23.47           $10.86              $5.49

KS          $11.83         $14.77      $18.72             $4.43                    $4.43                $3.57                         $13.56       $23.47             $6.50             $5.49

KY           $9.37         $11.74      $15.91             $4.43                    $4.43                $3.37                         $13.56       $23.47           $10.86              $5.49

LA          $11.83         $14.77      $16.69             $4.43                    $4.43                $3.57                         $13.56       $23.47           $10.86              $5.49

MA          $11.83         $14.77      $18.72             $4.43                    $4.43                $3.57                         $13.56       $23.47           $10.86              $5.49

MD          $11.83         $14.77      $17.05             $4.43                    $4.43                $3.57                         $13.00       $23.47           $10.86              $5.25

ME          $11.83         $14.77      $18.72             $4.43                    $4.43                $3.57                         $13.56       $23.47           $10.86              $5.49

MI          $11.83         $14.55      $17.85             $4.43                    $4.43                $3.57                         $13.56       $23.47           $10.85              $5.49

MN          $11.83         $14.77      $18.72             $4.43                    $4.43                $3.57                         $13.56       $23.47           $10.86              $5.49

MO1         $11.83         $14.77      $18.72             $4.43                    $4.43                $3.57                         $13.56       $23.47           $10.86              $5.49

MO2         $11.83         $14.77      $18.72             $4.43                    $4.43                $2.92                         $13.56       $23.47           $10.86              $5.49



                     OEI-05-08-00400            VA R I AT I O N   IN THE   C L I N I C A L L A B O R AT O R Y F E E S C H E D U L E                                            17
                      A     P   P E N D             I X                  ~         B            





  Table 2: Carrier Rates for the 10 Most Utilized Lab Tests for 2007 (Continued)
                                                                                                                                                                        Complete
                                                                                                                                                                     Blood Count
                                                                                                                                                           Assay    w/ Automated
                   Basic          Comp.                                          Urinalysis              Urinalysis                                       Thyroid      Differential
                Metabolic       Metabolic      Lipid        Urinalysis        Automated w/                   w/out             Glycosylated           Stimulating    White Blood           Prothobin
  Carrier          Panel           Panel       Panel        w/ Scope                Scope                   Scope               Hemoglobin              Hormone        Cell Count               Time

  NLA              $11.83         $14.77      $18.72             $4.43                    $4.43                $3.57                         $13.56       $23.47           $10.86              $5.49
  MS              $11.83         $14.77       $18.72             $4.43                    $4.43               $3.57                      $13.56           $22.73           $10.86             $5.49
  MT              $11.83         $14.77       $18.72             $4.43                    $4.43               $3.57                      $13.56           $23.47           $10.86             $5.49
  NC              $11.20         $11.80       $18.72             $4.43                    $4.43               $3.57                      $13.56           $22.77           $10.86             $5.49
  ND              $11.83         $14.77       $17.05             $4.43                    $4.43               $3.57                      $13.56           $23.47           $10.86             $5.49
  NE              $11.83         $14.77       $18.72             $4.43                    $4.43               $3.57                      $13.56           $23.47            $6.50             $5.49
  NH              $11.83         $14.77       $18.72             $4.43                    $4.43               $3.57                      $13.56           $23.47           $10.86             $5.49
  NJ              $11.83         $13.36       $18.72             $4.43                    $4.43               $3.57                      $13.56           $23.47           $10.86             $5.49
  NM              $11.83         $14.77       $17.16             $4.43                    $4.43               $3.57                      $13.56           $23.47           $10.86             $5.49
  NV              $11.83         $14.77       $18.72             $4.43                    $4.43               $3.57                      $13.56           $23.47           $10.86             $5.49
  NY1             $11.20         $14.77       $18.72             $4.43                    $4.43               $3.57                      $13.56           $23.47           $10.79             $5.49
  NY2               $8.93        $13.36       $18.72             $4.43                    $4.43               $3.57                      $13.56           $23.47           $10.86             $5.49
  NY3               $8.93        $13.36       $18.72             $4.43                    $4.43               $3.57                      $13.56           $23.47           $10.86             $5.49
  OH              $10.25         $14.77       $17.77             $4.43                    $4.43               $3.30                      $13.56           $23.47           $10.86             $5.49
  OK              $11.83         $14.77       $18.72             $4.43                    $4.43               $3.28                      $12.08           $23.47           $10.86             $5.49
  OR              $11.83         $14.77       $18.72             $4.43                    $4.43               $3.57                      $13.56           $23.47           $10.86             $5.49
  PA              $11.83         $14.77       $18.72             $4.43                    $4.43               $3.57                      $13.56           $23.47           $10.86             $5.49
  PR              $11.83         $14.77       $18.72             $4.43                    $4.43               $3.57                      $13.56           $23.47           $10.86             $5.49
  RI              $11.83         $14.77       $18.72             $4.43                    $4.43               $3.57                      $12.22           $23.47           $10.86             $5.49
  SC              $11.83         $13.36       $13.69             $4.41                    $4.41               $3.57                      $13.56           $23.47           $10.36             $5.49
  SD              $11.83         $14.77       $18.72             $4.43                    $4.43               $3.57                      $13.00           $23.47           $10.86             $5.49
  TN                $9.64        $12.05       $18.72             $4.43                    $4.43               $3.57                      $13.56           $23.47           $10.86             $5.49
  TX              $11.83         $14.77       $18.72             $4.43                    $4.43               $3.57                      $13.56           $23.47           $10.86             $5.49
  UT              $11.83         $14.77       $18.72             $4.43                    $4.43               $3.57                      $13.56           $23.47            $7.39             $5.49
  VA              $11.83         $14.77       $18.72             $4.43                    $4.43               $3.57                      $13.56           $23.47           $10.86             $5.49
  VT              $11.83         $14.77       $15.34             $4.43                    $4.43               $2.49                      $13.56           $23.47           $10.86             $5.49
  WA                $8.93        $11.92       $18.72             $4.43                    $4.43               $3.57                      $13.56           $23.39           $10.86             $5.49
  WI              $11.83         $14.77       $18.72             $4.43                    $4.43               $3.57                      $13.56           $23.47           $10.86             $5.49
  WV              $11.83         $14.77       $18.72             $4.43                    $4.43               $3.29                      $13.56           $23.47           $10.86             $5.49
  WY              $10.74         $14.77       $15.56             $3.57                    $3.57               $2.87                      $10.61           $22.93           $10.86             $4.44
Source: Office of Inspector General analysis of the 2007 Clinical Laboratory Fee Schedule and Medicare Part B Claims data, 2008.




                            OEI-05-08-00400            VA R I AT I O N   IN THE   C L I N I C A L L A B O R AT O R Y F E E S C H E D U L E                                            18
Δ   A P P E N D I X ~ C


     Agency Comments


          if-f/'ti'.,.,..HO'¥,'4.,


      {                ~             DEPARTMENT OF HEALTH & HUMAN SERVICES                                                  Gelllers   '0' Medicare & Medicaid ServICO'
       ~<5~                                                                                                                 200 Il1depelldence Avell". SW
                                                                                                                            Washinglo". DG 20201




                               DATE:                MAY 2 1 2009

                               TO:             Daniel R. Levinson
                                               Inspector General
                                             ~A A,ld.AA{)AA          ~
                               FRO           Veflaffene Fnzzera) '¥"
                                               Acting Administrator

                               S BJECT:          Office of Inspector General' Draft Report: "Variation in the Clinical Laboratory
                                                 Fee Schedule' (OEI-05·08-00400)


                               The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                               provide comments 00 the Office of Inspector General's (OIG) draft report entitled "Variation in
                               the Clinical Laboratory Fee chedule." The report assessed carrier rates as well as utilization
                               and payments for Medicare-covered lab tests in 2007 and found variation across carriers that did
                               not appear to reflect geographic difference in cos!.

                              Medicare Part B payments for laboratory lests are determined by the Clinical Laboratory Fee
                              Schedule (CLFS). The Deficit Reduction Act of 1984 mandated that fee chedule be
                              established for each laboratory test on a regional, statewide, or carrier basis. As a result, each
                              carrier established its own fee schedule rates that are collectively known as the CLFS. The
                              Consolidated Omnibus Reconciliation Act of 1985 mandated a national limitation amount
                              (NLA). The NLA is set at 74 percent of the median carrier rate for each laboratory test (or 100
                              percent of the median for new tests for which an NLA was not established before January I,
                              2001). Based on section 1833(a)(1 )(0) and 1833(a)(2)(0) of the Social eeurity Act (the Act),
                              carriers pay the laboratories the lower of the laboratories' charges, the LA, or the carrier rate.

                              DIG Recommendation:

                              CMS should request legislative authority to institute a new process for setting accurate and
                              reasonable payment rates. CMS could use several methods to achieve this resull. Whatever
                              method CMS implements should be determined aller careful consideration of the impact on
                              Medicare costs and on the laboratory industry.

                              CMS Response:

                              We non-concur at this time. The President's budget for fiscal year 20 I0 docs not include any
                              proposals to amend the paymcnt methodology for clinical laboratory tests. However, we will
                              take this recommendation into consideration as we continue to monitor the effects of our current
                              payment policies.




OEI-05-08-00400                       VA R I AT I O N   IN THE   C L I N I C A L L A B O R AT O R Y F E E S C H E D U L E                                        19
A P P E N D              I X                 ~         C            





                   Page 2 - Daniel R. Levinson

                   The OIG state that, in the interim, CM could standardize payment rates across the CLF and
                   suggests that this could be done by paying for all laboratory tests at the current LA or at a
                   reduced NLA. They further note that while setling base payment rates based on the LA would
                   eliminate tbe current variation, those payment rates may still not accurately reflect cost.
                   Therefore they recommend that MS consider adjusting these rates to renect geography and
                   other factors that affect co t.

                   Currently, CMS' authority to set payments at a different percentage of the NLA is limited by
                   statute. Specifically, section I833(a)(1 )(D) and I833(a)(2)(D) of the Act provide that, for
                   clinical laboratory diagnostic services, CMS shall pay the lesser of the CLFS amount, the NLA,
                   or thc amount of charges billed for the test. The statute also specifies how the amount of the
                     LA shall be calculated. Therefore, we do not have the authority at the current time to
                   standardize rates across the CLF by paying all tests at tbe current LA or a reduced NLA.

               Finally, the OIG recommends that CMS develop a process to establisb accurate and reasonable
               payment rates for new lab te ts that would represent costs, adjusted for any geographic
               differences, and would not create new rate variations.

               As described in the OIG's report, two methods are used to establish payment amounts for ncw
               lab test codes. Cross-walking is used when a new test is determined to be imilar to an existing
               test, multiple existing test codcs, or a portipn of an existing test code. The new test code is then
               assigned the related existing local fee schedule amount and the related existing LA. Gap-
               filling is used when no comparable, existing test is available, and presents an opportunity to
               establisb rates based on more updated cost data. While the gap-filling methodology has the
               potential to establish new rates more closely lied to cost and 10 more narrowly limit variation
               within carriers, it is far more common for us to use cross-walking to establish the rates for new
               lab tests because new tests are frequently very similar to existing ones. If we were to use gap-
               filling even when it is possible to cross-walk, we might be able to establish payment that reflects
               national average costs adjusted for geographic area differences but might create new
               inconsistencies by having different rates within a single geographic area for laboratory services
               with similar costs.

               We do note, however, that in the calendar year 2007 Physician Fee cbedule, CMS implemented
               section 942(b) of the Medicare Prescription Drug, Improvement, and Modernization Act of2003,
               which required that CMS establish procedures [or consulting the public on'how to establish
               payment for new clinical laboratory test codes to be included in the annual update of the CLFS.
               Wc now hold an annual public meeting to allow for public input on the pricing of new tests and
               we provide an additional opportunity for the public to comment once the proposed rates are
               posted. Altendees and those who provide commentli are invited to submit cost data to aid CM
               in accurately pricing new tests.

               The CMS is committed to improving our CLF payment policies and to refining our
               methodologies for e tablishing new payment rates. Therefore, we appreciate the opportunity to
               comment on this report.




 OEI-05-08-00400           VA R I AT I O N   IN THE   C L I N I C A L L A B O R AT O R Y F E E S C H E D U L E        20
A   P    P E N D I X ~ A
ΔA      A C K N O W L E D G M E N T S
        P P E N D I X ~ A



                      This report was prepared under the direction of Ann Maxwell, Regional
                      Inspector General for Evaluation and Inspections in the Chicago
                      regional office, and Thomas Komaniecki, Deputy Regional Inspector
                      General.

                      Mark Stiglitz served as the team leader for this study. Other principal
                      Office of Evaluation and Inspections staff from the Chicago regional
                      office who contributed include Mara Werner. Other principal central
                      office staff who contributed include Cynthia Thomas, Scott Manley, and
                      Robert Gibbons.




    OEI-05-08-00400   VA R I AT I O N   IN THE   C L I N I C A L L A B O R AT O R Y F E E S C H E D U L E   21
